    REINVENTION PROPOSALS
           PHASE I

          January 24, 1995




OFFICE OF INSPECTOR GENERAL
RAILROAD RETIREMENT BOARD
 INTRODucnON


 The Office of Inspector General (OIG) and agency management are partners In
 the design of a raUroad retirement system that provides the highest level of .
 customer service at the lowest cost. In order to advance the process· of change
 at the RaIlroad Retirement Board (RRB), the 010 ~ reviewed and evaluated
 the reorganization that was recently approved by the Board Members. This
 document presents the results of that analysis as well as recommendations
.that build upon the agency's restmcturlng actions.


                                .*** ISSUE ONE ***
The revised organJza.tional stmcture of the agency remains bureaucratic and
reflects no sfgnifleant reduction in the number of bureaus or offices that will
alter daily operations. In order to comply with the reinvention principles and
streamllnfng directives established by the Administration~agency management
must recognize the critical need to reduce managerial and supervisory
oversight and to a.1fgn programs with sfmfJar functions and missions.

  In addition, the RRB should radically reduce the number of field offices. The
. development and aggressive use of new computer and telecommunications
  technology offers a slgniftcant opportunity to Improve services and reduce
  costs.                                                 .


 Background

From the 1930s through the 1960s, agencies of the Federal government
followed the lead of corporate America in creating large, top-down, centralized
bureaucracies. nus type of stmcture had proven effective for organizations
functionmg In stable environments With routine technology. This methodology
encourages a focus on individual goals and routine tasks, not on the basic
mission of the organization. CoDfUct often results between bureaus and offices
as each attempts to maximize its production without consideration of the
impact upon others. These bureaucracies have proven to be extremely rigid
and Inflexible.

The RRB, too, developed an organizational structure that supported formal
lines of communication, the separation of tasks assigned to independent
bureaus and offices with individually defined n.tles and regulations. However,
in todays environment.. this operating design no longer meets the needs of the
agency or its customers. Improvements in information technology are
tremendous, and the power of personal computers is doubling almost every


                                        1

 eighteen months. Through the use of computers and telecommunications. the
 agency can eltrnfnate layers of managers. reduce the number of supervisors
 and pennit better lnformationsha.r1ng among all employees.


 Current Organizational structure

 The 1993 National Performance Review directed Federal agencies to shed their
 outdated structures. management pmctices and relationships. All go~nunent
 agencies are reviewing their orgamza.tional structures and implementing
 sfgniflcant changes to adapt to the current environment. In December 1994.
 three cabinet departments rrrBnsportation. Energy and Housing and Urban
 Development) and two major agencies (General Services AdmInIstration and
 the Office of Personnel Management) announced restructurlng plans that will·
 save approximately $24 bUUon over five years. One agency 18 combining 60
 programs. Into four·and another plans to consolidate its fac1l1ties and·
 restructure its management. In addition. the Department of Agriculture is
 elfmJnating 1200 field offices.

As a result offtndtngs cited in Arthur Andersen's 1993 financial statement
audit report. the Board Members recognized that the RRB's organizational
structure was no longer effective. Arthur Andersen and Company identlfled
. the organization of the RRB as a major wealmess in agency opemtions. The
  present structure does not align sfmtJar functions but perpetuateS a
  fragmented enVironment. The existence of over twenty bureaus and offices
  results in an atmosphere that fosters indivIdual opemtlng bureau goals mther
. than the overall mission of the agency. Bureaus compete against each other
  for lJmited resources rather than identifying ways to Improve coordination and
  cooperation for better customer service. The report stated that the agency
  lacked adequate lines of communication among bureaus to address problems
  or resolve current operational issues.

 On November 15, 1994. The Board Members approved a reorganization of the
 agency. effective January 3. 1995. to address those weaknesses cited by the
.auditors.


 Reorganlzaflon

The Office of Inspector General has reviewed the recent reorganization plan.
and has concluded that the agency should Implement additional. more mdical
changes to strearnlfne operations and create a more flexible structure which
will reduce unnecessary managerial and supervtsOIY oversight.




                                        2
    The organizational charts that fonow clearly Indicate that the recently approved
    plan 18 more cosmetic than substantive. The revised stmcture remains
    bureaucratic and fragmented, and renects no slgnJflcant changes that w1ll alter
    day-to-day operations. ContJnued reductions In stafDng and funding mandate
    that agency management Identify new and more eftlc1ent ways to oPerate. The
    goal must be to eliminate layers of management, not to simply shift managers
    among bureaus.                                                            .

     RRB ORGANIZAOON EFFECTIVE SEPTEMBER 23, 1991 .

                       IIiSPECTOR                                                        SECRETARY
                         GEIIERAL                    THE BOARD                            TO THE
                                                                                          BOARO



                                                    WASHIIIGTOIi                                      PUBLIC
                      OFfiCE OF                    LEGISLATIYEI                                      AFFAIRS
                      'GEIIERAL      1-------+----1 LIAISOII     1----1                               OFfiCE
                       COUIISEL                      OfFlC,E

                             I


                    BUREAU OF LAW

                                                    OfFICE OF

                                                 ADMIIII STRATIOII
           EQUAL
                                                      All)          -   . EllPLOYMEIIT
                                                   OPERATlOIIS               OFFICE

                       IUftEAU OF
                   . HEARIIGS AND

                       APPEALS




  OFFICE OF       BUREAU OF           BUREAU OF

 RETIREMEIT
     DISABILITY          UNEMPLOYMEIIT                      BUREAU OF             BUREAU- OF         OFFICE OF'
AID SURYIVOR    AND MEDICARE             AID                               THE                 FISCAL          ADMI.NISTRATIYE
  PROGRAMS       OPERATIONS            SICKNESS                          ACTUARY              OPERATIONS         SERYICES
                                      INSURANCE



  BUREAU OF

 RETIREMEIIT

  8EIIEFITS
                      I                I                                     I                       I           BUREAU OF
                                                                                                                 PERSONNEL
                 BUREAU OF         BUREAU OF           BUREAU Of        BUREAU OF             BUREAU OF
       I         TUATlOIi        RESEARCH AID        FIELD SERYICE        DATA                  SYSTEMS               I
                                  EMPLOYMEIIT                           PROCESSING           IIiITIATlYES
                                   ACCOUNTS
  "'Of                                                                                                           BUREAU. OF
  SURYIYOR                                                                                                        QUALITY

  8EIIEFITS
                                                                                                     ASSURAllCE

                                                      REGIONAL                                                        I
                                                      OFFICES
                                                         (5)
                                                                                                                  BUREAU Of
                                                                                                                IIIFORMATlOil
                                                                                                                  RESOURCES
                                                                                                                  MANAGEMEJIT
     ORGANllAnONAL STRUCTURE INCWDES
                                                                                                                      I
     24 OFFICES/BUREAUS
      17 REPORT TO ONE KEY EXECUTIVE                                                                             BUREAU OF

                                                                                                                SUPPLY AID

                                                                                                                  SERYICE


                                                           s

 REVISED ORGANlZAnoN EFFECTIVE JANUARY 3, 1995



                      I.SPECTOR

                       GENERAL
                        THE BOARD



                                                            I
                                                            I                                I
                      OfFICE Of
                       OfFICE Of                       OfFICE OF

                      PROGRAIIS
                        GENERAL      I­            AD..INISTRATIOII

                                                        COUNSEL




    BUREAU Of                                          OfFICE Of           SECRETARY
               BUREAU OF

   U.E....LOY..EIIT                BUREAU Of          LEGISLATIVE    f-     TO TilE
     r- I ­    IMFORMATIOII

         AJID          I-- I--     TAXATIOIl           AFFAIRS              BOARD                    SYSTEMS

      SICKNESS

    I.SURAICE




      BUREAU Of.                   OfFICE OF                               BUREAU OF                BUREAU OF

    DISABILITY                    RETIRE"ENT         BUREAU OF LAW f-       FISCAL       r- I ­   RESEARCH AID

   AIlD MEDICARE       ~ I-      AID SURVIVOR I -                          OPERATIOIlS             E..-LOYMEIT

    OPERATIONS                     PROGRAMS                                                         ACCOUIITS





                                                       BUREAU Of           BUREAU OF
               BUREAU OF

     BUlIEAU OF                   BUREAU OF
         HEARINGS AJa)   f-   SUPPLY AIID
   r- I ­      QUALITY

   FIELD SERVICE       r-        RETIRE"ENT
    r-     APPEALS              SERVICE
                ASSURAllCE

                                  BEIlEFITS



           I

                                                                                                   OFFICE OF

     REGIONAL
                     BUREAU Of
                             BUREAU OF
     r- r-      PUBLIC

     OfFICES
                      SURVIVOR
    r-                        PERSONNEL
                AFFAIRS

        (3)                        BENEFITS





                                                                          BUREAU OF
               OfFICE OF

                                                                             THE
        r-'-­       EQUAL

                                                                           ACTUARY
               OPPORTUIITY




REVISED STRUCTURE INCLUDES 22 OFFICES/BUREAUS
(EXCWDING SECRETARY TO THE .BOARD) AND lwO
KEY EXECUTIVES (DIRECTOR OF PROGRAMS AND
DIRECTOR OF ADMINISTRATiON) VERSUS PRIOR ONE




                                                       4
Recommendation

The OfIlce of Irispector General recommends an organizational structure that
groups programswlth similar functions and missions Into five Independent
bureaus. These bureaus·are (1) Benefit Payment Programs, (2) Flnancla1
Operations, (3) Information Systems, (4) Legal Affairs, and (5) Admlnlstratlve
5erv1ces.


PROPOSED ORGANIZATONAL STRUCTUkE




             INSPECTOR

              GENERAL
                  THE BOARD



                                              I

                I               I             I             1               I


             BENEfIT .
             PAYMENT      f1I1AIICIAL   IIIfORMATlOIL
    LEGAL
    ADllIIIISTRATlYE

             PROGRAIIS    OPERATIONS        SYSTEMS
     AffAIRS
      SERVICES





1. Benefit Payment Programs·

This office would serve as the agency's principal bureau and Include
retirement, survivor, dlsabillty; medicare, unemployment and sickness
Insurance benefit programs and field services.                 .


2. F1nanc1al Operations

This office directed by the Chief Flnanclal Oftlcer, would Include the current
Bureau of Fiscal Opemtions, Research and Employment Accounts and the
Actu81Y. This reaJJgnment would centralize all financial and statistical
operations.




                                        5

3. Information Systems

This bureau would combine the functions of the Bureaus of Data Processing,
Systems Initiatives, and Infonnation Resources Management, with the
exception of-the Freedom of Information Act actlvlties which would move to
Legal Affairs.


4. Leial Affairs

All matters relating to legal Issues would be consolidated, and would include
the Oftlces of General Counsel and LegIslative Affairs, the Bureaus of Law and
Hearings and Appeals, and Freedom of Information Act actlvlties.


5. Administrative Services

The support functions of the agency would be Included In this bureau:
Personnel, Supply and Service, Equal Employment Opportunity, and Publ1c
Affairs.



The reaJJgnment of bureaus Into a smaller number of functional areas will
permit employees to work more closely, identify ways to opemte more
efficiently and eliminate overlap between stmflar systems. The elimination of
unnecessaIY layers of management oversight will increase employee motivation
and productivity. This restructuring will also promote eOOpemtion among .
employees and penD.1t them to be the decision makers in their respective areas
of responsibility. This environment will provide front-line employees with a
greater sense ofjob security and personal accomplishment. These employees
are best positioned to identify improved methods to deliver the best customer
service.                                 .

Both the Administmtlon and Congress have directed Federal agencies to
reduce the number of government managers and supervisors, particularly at
the G5-14, G5-15 and Senior Executlve Service levels.

The recommended orgammtlonal structure will increase the span of control
above the level proposed In the agency"s streamlining plan. Fewer
organizational boundaries will result In a focus on agency goals mther than
competition for diminishing agency resources.




                                      6
The work perfOImed at the district offices has changed from predomlIiantIy
processing unemployment claims to processing retirement and maintenance
work for all benefit programs. In 1949, theRRB paidunemployment/slclmess
insurance benefits to over 435,000 beneficlartes. In 1993, approximately
42,000 benefic1arles received these benefits. The number of retirement
applications declJned from alIilost 67,000. In 1949 to 43,000 in 1993.


Current structure

The agency currently maintains five regional offices, each with a regional
director, and a deputy regional director, except ~on 5 which has no deputy.
A review of the field offices shows 13 offices with two employees, generally a .
manager and one other employee and sJx offices with only one employee, two of
which are managers with no staff. With few exceptions, most of the offices
have a manager, with larger offices having clerical support staff.           .

The methods for performing field seIVice work are changing drama~cany.
Computer and telecommunications developments to the 1960s and 1970s
made more InfOImation·avaUable in the field offices. 'Further advancements In
the 1990s are enabling employees to perform their work regardless of location ­
from govemmentoffice space to a shopping mal, from a raflroad employers
personnel office to a union local office.

Recent customer satiSfaction surveys and focus groups have shown. that
beneftclartes prefer to handle most of their contacts with the agency by
telephone, except for fillng the initial ret1reInent application. In addition, the
number of retirement applications med each year is decl1nfng.· Most of the
active raJIroad employees who will be flling applications IIi the·future·are
concentmted In s~fflc geographic areas. Contact representatives working
from approximately ten district offices could provide service to these future
beneficlartes.                                      '

The chart on the following page shows that nine states have more than 25,000
beneficlartes, seven states have more than 10,000 workers, and six states have
over 25,000 beneficiaries and over 10,000 workers.




                                         8

9
Recommendation

RRB management should develop a plan to reenglneer the field service deI1veIY
processes and reduce the number of field offices. Based upon demographics,
and through the use of alternative methods of service delivery, the agency
should eliminate reglonal offices andsfgniflcantly reduce the number of field
offices from 86 to 10. These reductions wf1l eUmlnate unnecessary offices and
one layer of management, resultJng In cost savings estimated in excess of
$10.6 million in salarles and benefits (255 FIEs) and $1.3 mflllon in rental
charges annual1y~

Most of the reductions would be mid-level (district office) managers, reglonal
omce managers and adm1n1stratlve support staff in reglonal and district          .
offices. These positions could· be eliminated as a result of the consolidation of
the field offices. Appendix 2 presents the number of positions which could be
eUmlnated in each reglon.

As in the previous recommendation concerning agency organization, the
projected cost savings do not include costs related to reductions in force. The
agency should also consider submitting various strategies to the
Administration and Congress to accomplish this streamlining proposal.

As part of its plan, the RRB· should consider innovative methods of providing
effective customer service that do not require the full-time offices. For
example, more customer service representatives could provide itinerant service
at various locations. A majority of the states with over 10,000 active ratlroad
employees serve as the headquarters location for one or more major railroads~
Contact representatives could schedule specJftc days to process retirement·
appl1catiqns at these major railroad offices. Formtng this type of partnership
with railroad companies wOuld benefit their employees and reduce the costs of
the retirement program.

The RRB should also explore the possibl11tyof locating terminals at Socla1
Securtty Administration offices for use by contact representatives,· sharing
space with other Federal agencies, and using portable computers to maintain·
communication access with headquarters~ The agency should study other
·technologles such as desktop video conferencJng and electronic kiosks to
provide service to more locations and sfgnlftcantly reduce the need for
permanent office .space. Based on the overall needs of the organization, the
agency may be able to redirect some of the savings from streamlining the field
service into a technology investment fund which could be used for purchasing
new technology as it becomes avaUable.




                                        10

CONCLUSION

The Office of Inspector Generalis provldJng these recommendations to d.SSlst
Board management in streamlining the RRB and improving the overall control
environment.

A review of the recent agency reorganization indicates that the new strocture Is
very slm11ar to the previous one. Only one of the twenty-four bureaus and
offices was eliminated, two key manager positions replace the previous one,
and the only maJor consolidation was in the information systems &rea. The
RRB has taken but a single step in the process to eliminate· the bureaucracy
that stlll exists.

RRB management must seize the opportunity to reinvent operations and
implement changes that will be far';reachJng. The RRB must also initiate
action to sfgnJftcantly increase the involvement of agency personnel in
reviewing policies and procedures and making dec1s1ons on proposed
solutions. In simple terms, management must rethink the way agency benefit
programs are admJn1stered.                       .

Implementation of the recommendations contained In this document could
yield annual savings of$21.6.mJ1l1on and eliminate 422 full-time equivalent
positions. These changes will not be easy to achieve, and will require much
study and planning. However, the OIG believes that, through the
recommended reorganization of the agency, particularly the field service, RRB .
management can demonstrate its commitment to genuine change and truly
alter the way it conducts business.




                                       11

                                                                                          Appendix 2


                             BUREAU OF FIELD SERVICE (BFS)
                             SAVINGS - SAlARY & BENEFITS

      .:.... ..               NurTber     NurTber
                   Total        to            to                Salary &
Grade             Nurrt>er   Allocate     Eliminate    Salary   Benefits     Savings
GS-4I5                  30            6          24   $18,949    $22,739       $545,736
 G8--S·····             18           12           6   $23,632   $28;358··      $170,148
 GS-7                    6            0           6   $26,259   $31,511        $189,066
GS-8                   160           75          85   $29,082   $34,898      $2,966.330
GS-9                     6            0           6   $32,125   $38,550        $231,300
GS-10                   92           43          49   $35,379   $42,455      $2,080.295
GS-11                   23            0          23   $38,867   $46,640      $1,072,720
GS-12                   44            0          44   $46.584   $55.901      $2,459,644
GS-13                   13           5            8   $55,394   $66,473        $531,784
GS-14                    4           5            0 . $65,460   $78,552              $0
GS-15                   5           0             4   $n,001    $92,401        $369,604
Totals                401         146           255                         $10,616.627

   Note: BFS headquarters employees are excluded. EfTl)loyees and savings
         relate to BFS field personnel only.
This document was scanned for electronic
      distribution on April 20, 2009.

     Inquiries should be directed to:

       Office of Inspector General
     U.S. Railroad Retirement Board
            844 N. Rush Street
          Chicago, Illinois 60611

        Telephone: 312-751-4690
